                         OFFICE OF VETERANS BUSINESS
                        DEVELOPMENT’S MONITORING OF
                          COOPERATIVE AGREEMENT
                            NO. SBAHQ-99-O-0004 TO
                             TEP CONSULTING, INC.

                            AUDIT REPORT NUMBER 3-22

                                     APRIL 2, 2003




This report may contain pro prietary information subject to the provisions of 18 USC 1905
and must not be released to the public or another agency without permission of the Office
of Inspector General.
                  AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY

        The audit objective was to determine if OVBD effectively monitored TEP’s compliance
with the requirements of SBA Cooperative Agreement No. SBAHQ-99-O-0004. The audit
covered administrative oversight of TEP’s operations from September 1999 to June 2002. We
reviewed relevant laws and regulations, TEP’s financial records, the Notice of Award, and TEP’s
financial and performance reports submitted to OVBD. We interviewed TEP’s president and
SBA program officials. We also made a site visit to TEP’s office.

       We performed fieldwork from June 2002 to September 2002. The audit was conducted
in accordance with Government Auditing Standards.


                                     AUDIT RESULTS

Finding: OVBD Did Not Pro mptly Enforce Compliance with Certain Terms and
        Conditions of the Cooperative Agreement

        OVBD did not address TEP’s possible noncompliance with cooperative agreement terms
and conditions with TEP as they arose. This was due to a lack of expertise and training by
OVBD staff and OVBD’s overly cautious approach in notifying TEP of noncompliance issues.
As a result, noncompliance issues were not corrected and federal funds may not have been used
effectively and efficiently. The Notice of Award, Item 31, SBA Involvement, states that OVBD
is responsible for monitoring the on-going operation of cooperative agreement recipients for
effective and efficient use of federal funds.

        OVBD officials acknowledged that they had neither the expertise nor the training to
effectively respond to many of TEP’s potential noncompliance issues as they emerged.
Additionally, according to OVBD officials, TEP’s president acted in a confrontational and non-
cooperative manner, which caused OVBD to develop an overly cautious approach in resolving
matters of noncompliance. OVBD officials stated that TEP’s owner was not communicating
with OVBD directly but was instead contacting various high ranking officials within and outside
of SBA and making accusations against OVBD staff. Thus, when OVBD officials noticed that
TEP appeared to be out of compliance with various cooperative agreement terms, they did not
promptly notify TEP’s president of these apparent deficiencies and attempt to rectify them.
Rather, according to OVBD officials, they attempted to obtain support from other SBA offices in
dealing with TEP, such as the Office of Procurement and Grant Management, the Office of
General Counsel and the Office of Inspector General. The requested support was not always
provided, however, and as a result, noncompliance issues were not corrected in a timely manner
and effective and efficient operation of cooperative agreement initiatives were compromised.
Issues that arose but were not immediately brought to TEP’s attention were:

•   Requests for reimbursement – documents submitted by TEP for reimbursement of expenses
    did not contain the necessary support, and yet such requests were approved for payment.
    SBA Form 2069, Detailed Actual Expenditure for Period Covered by Request, notes that “all
    cost categories must be supported by narrative justification.” None of TEP’s 29



                                               2
      reimbursement requests to SBA for the period December 1999 to May 2002 had supporting
      narrative justification attached.

•     Performance reports – Performance milestones were not being met for certain periods and
      TEP’s explanations for the shortcomings were insufficient. For example, for the quarterly
      period ending August 31, 2001, slippage against performance milestones was attributed
      simply to “the summer season” and no corrective action on TEP’s part was specified. For
      the period ending April 30, 2002, the main reason given for slippage was “the inability to
      receive reimbursements on time (and) a modification to the original contract that, if
      implemented, will severely change the way this VBOC can offer or provide services,” and no
      corrective action was specified. The Notice of Award, Item 31, SBA Involvement, states that
      SBA should “…review semi-annual narrative and data project reports for completeness and
      adequacy.” Also, The Notice of Award, Item C, Performance Reports, states that such
      reports must contain “reasons for slippage in those cases where milestones were not met and
      a plan of action to overcome the slippage or a detailed statement of how the program will
      better serve eligible veteran business owners if the milestones are revised.”

•     Site visit report – OVBD officials conducted a site visit of TEP’s home-based VBOC and
      determined that the VBOC was not accessible to disabled veterans. While an OVBD official
      stated that a site report was prepared, OVBD could not find a copy of the site report and
      TEP’s president stated he never received it.

•     TEP’s Web site was not functioning from February 2002 through the end of June 2002.
      According to the Revised Notice of Award, Part F, Internet and Web-site Requirements, each
      VBOC is to make the transition to a Web-based center in order to reach a larger audience of
      potential veteran clientele using the Internet to access information. As a result, Web-based
      services delivered to veterans were substantially interrupted, causing grant objectives to not
      be met.

        By not being able to fulfill these oversight responsibilities properly, OVBD could not
resolve TEP’s compliance deficiencies in a timely manner to ensure the effective and efficient
use of cooperative agreement funds. As a result, cooperative agreement initiatives were
compromised and service to veterans may have been negatively affected.

         Recommendations:

We recommend that the Associate Administrator for Veterans Business Development :

1A.      Ensure that all deviations from the terms of the cooperative agreement are immediately
         communicated to TEP and rectified in a timely manner.

1B.      Develop and implement a plan of training to ensure that OVBD staff can effectively
         administer cooperative agreements such as the one with TEP.




                                                  3
SBA Management Comments

      We received oral comments from OVBD officials. They agreed with the finding and
recommendations.



                                       * * * * *

        The recommendations in this audit report are based on the conclusions of the Auditing
Division. The recommendations are subject to review, management decision and action by
your office in accordance with existing Agency procedures for audit follow-up and
resolution.

        Please provide us your management decision for each recommendation within 30 days.
Your management decisions should be recorded on the attached SBA Forms 1824,
“Recommendation Action Sheet,” and show either your proposed corrective action and target
date for completion, or explanation of your disagreement with our recommendations.

       Should you or your staff have any questions, please contact Robert G. Hultberg, Director,
Business Development Programs Group at (202) 205-7204.




                                               4
                                                                                                                 ATTACHMENT 1

                                            AUDIT REPORT DISTRIBUTION


Recipient                                                                                                   No. of Copies

Associate Deputy Administrator for Management and Administration ....................1

General Counsel.........................................................................................................3

Assistant Administrator for Administration...............................................................1

Office of the Chief Financial Officer
Attention: Jeffrey Brown ...........................................................................................1

General Accounting Office ........................................................................................1
